0 P. „ fs Q A
No.

O r:" \'f^- f\ Fi A ti
Supreme Court, U.S.
FILED

MOV 0 7 m
j

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

NGUYEN VU, PETITIONER
vs.
COMMONWEALTH OF PENNSYLVANIA, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
PENNSYLVANIA SUPERIOR COURT

PETITION FOR WRIT OF CERTIORARI
OR WRIT OF HABEAS CORPUS

NGUYEN VU
5913 ROOSEVELT BLVD
PHILADELPHIA PA 19149-3320
(215) 827-7885

QUESTION PRESENTED

Section 1 of the Fourteenth Amendment to the United States Constitution
states, in part,
nor shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the law.”
Petitioner was prosecuted, convicted, and imprisoned to cover up the crimes
of Jason John Kegel who is a family member, a relative, or a friend of Robert Lynch,
then an assistant district attorney.
Petitioner was prosecuted, convicted, and imprisoned based solely on the
perjured testimony, admitted being perjured, by the complainant himself.
Petitioner’s was deprived of liberty and property without due process of law.
Petitioner was also denied the equal protection of the law. Petitioner’s trial and
conviction lacked fundamental fairness. The Kafkaesque “judicial processes” that
Petition had to go through for over 12 years lacked any judicial character.
Petitioner did not receive a fair and impartial preliminary hearing, trial,
appeal, Post-Conviction proceeding because the collusion between the district
attorneys and state judges.
Petitioner did not receive a fair and impartial adjudication of his Habeas
Corpus petition also because of the collusion between the federal judges, state
judges and prosecutors.
Petitioner cannot apply for a Writ of Habeas Corpus in the United States
District Court, Eastern District of Pennsylvania, because judges at the District
Court and judges at the Third Circuit are not impartial judges.
As a reason, Petition has to apply for a Writ of Habeas Corpus with the Court
as the Court of last resort.

LIST OF PARTIES

All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

[X]

Lawrence S. Krasner, District Attorney, Philadelphia County, Pennsylvania

RELATED CASES

Commonwealth v. Nguyen Vu
Direct
•
•
•

CP-51-CR-0009321-2007 (Court of Common Pleas of Philadelphia)
2307 EDA 2008, 988 A.2d 732 (11/10/2009) (Superior Court - Direct Appeal)
713 EAL 2009, 995 A.2d 352 (5/10/2010) (PA Supreme Court — Petition for
Allowance of Appeal)
PCRA

•
•
•

CP-51-CR-0009321-2007 (Court of Common Pleas)
2091 EDA 2012, 87 A.3d 896 (10/30/2013) (Superior Court — PCRA Appeal)
104 EAL 2014 (7/28/2014) (PA Supreme Court - Petition for Allowance of
Appeal)
• 14-6943 (U.S. Supreme Court - Petition for a Writ of Certiorari)
Habeas Corpus
•
•
•

2:14-cv-05691 (U.S. Dist. E.D. Pa.)
16-0279 (3d Cir. Pa. - Petition for COA)
17-5446 (U.S. Supreme Court - Petition for a Writ of Certiorari)
Second PCRA

•
•
•

CP-51-CR-0009321-2007 (Court of Common Pleas)
3326 EDA 2018 (Superior Court - PCRA Appeal)
113 EAL 2020 (8/10/2020) (PA Supreme Court - Petition for Allowance of
Appeal)

ii

TABLE OF CONTENTS

Opinion below..................................................................................................

1

Jurisdiction......................................................................................................

1

Constitutional and Statutory Provisions Involved......................................

2

Statement of the Case.....................................................................................

3

Kegel’s attack on Petitioner because Petitioner is an Asian...........

3

Robert Lynch brought criminal charges against Petitioner............

4

Kegel’s false statements to Detective Miles on 12/11/2006 .............

4

Mattes’ false statements to Detective Morley on 2/11/2007 ............

5

Detective Miles’ false statements in his Affidavit of probable cause

5

Robert Lynch was the prosecutor at the preliminary hearing on 5/14/2007... 6
Kegel’s perjured testimony at the preliminary hearing on 8/3/2007 ......

6

Motion for Discovery...................................................................................

7

Trial prosecutor Erica C. Wilson hid or destroyed exculpatory evidence

7

Commonwealth’s Accident Reconstruction Report...................................

8

Robert Lynch suborned Kegel and his son to change their testimony ...

9

Prosecutor Wilson lied to have a jury-waiver trial..................................

10

Testimony of Detective Miles....................................................................

10

Testimony of Robert Lynch, ADA..............................................................

10

Trial prosecutor knowingly presented perjured testimony.....................

10

Prosecutor Wilson suborned Kegel to offer perjured testimony.............

12

Prosecutor Wilson suborned Kegel to offer perjured testimony a second time
13
Prosecutor Wilson suborned Kegel to offer perjured testimony concerning his
gun..............................................................................
14
Kegel’s admission of perjury on cross-examination

iii

15

Prosecutor Wilson and Judge Byrd prevented trial counsel from questioning
Kegel concerning his prior hate crimes
16
Prosecutor Wilson suborned Mattes to offer perjured testimony to match his
father’s perjured testimony.............................................................................. 16
Mattes’ admission of false statements on cross-examination....................... 17
Testimony of Police Officer Tokley.................................................................. 18
Testimony of the Defense’s expert................................................................... 18
False testimony of the Commonwealth’s expert............................................ . 19
Prosecutor Wilson lied in her closing argument and at sentencing............. 20
Prosecutor Wilson told Judge Byrd to hide or destroy all trial exhibits...... 20
Judge Byrd attained a false verdict................................................................. 20
Judge Byrd made false statement at sentencing and in his Opinion........... 21
Prosecutors’ misconduct on direct appeal....................................................... 22
No intent to cause serious bodily injuries to Kegel and his son.................... 23
Petitioner was convicted on actual theory; the PA Superior Court affirmed
Petitioner’s conviction and sentence based on an attempt theory................ 24
The Superior Court panel invented excuses to cover up Kegel’s and his son’s
crimes of perjury
24
Prosecutor’s misconduct on the Post-Conviction Relief Act (PCRA) proceeding
26
Motion for Recusal on PCRA proceeding

26

Judge Byrd appointed a law clerk without malpractice insurance to represent
Petitioner on PCRA appeal.........................................................................
27
Judge Byrd refused to produce five (5) color photos of Kegel’s car..........

27

Misconduct of prosecutors on PCRA appeal...............................................

27

Misconduct of prosecutors on Habeas Corpus proceeding..........................

29

Misconduct of the magistrate judge on Habeas Corpus proceeding......

30

Subsequent PCRA petition.........................................................................

33

Judge Byrd’s misconduct in the Motion for Recusal En Banc proceeding.....33

iv

Prosecutor’s misconduct on PCRA proceeding............................

34

Petition for a Writ of Prohibition with the PA Supreme Court.

35

Judge Byrd’s false statement in his Opinion filed on 1/15/2018

35

Pennsylvania Superior Court is biased......................................

37

Pennsylvania Supreme Court......................................................

39

Reason for Granting the Petition...........................................................

39

Conclusion................................................................................................ .

40

v

INDEX OF APPENDICES

1.

Pennsylvania Superior Court panel’s Memorandum, No. 3326 EDA 2018,
Dec. 10, 2019

2.

Judicial Opinion, Sandy L.V. Byrd, Judge, Court of Common Pleas of
Philadelphia County, No. CP-51-CR-0009321-2007, Jan. 15, 2019

3.

Pennsylvania Supreme Court’s Oder denying Petition for Allowance of
Appeal, No. 113 EAL 2020, Aug. 10, 2020

vi

TABLE OF AUTHORITIES

CONSTITUTION
Fourteenth Amendment to the Constitution, Section 1

39

FEDERAL CASES
Jackson v. Virginia, 443 U.S. 307 (1979)

31, 33

Mooney v. Holohan, 294 U.S. 103 (1935)

31

STATE CASES
Commonwealth v. Jones, 54 A.3d 14 (Pa. 2012)

36, 38

STATE STATUTES
18 Pa.C.S. § 2702

24

42 Pa.C.S. § 9545

33

42 Pa.C.S. § 9714

29

RULES
Pennsylvania Rules of Criminal Procedure 907

vii

26

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
OR A WRIT OF HABEAS CORPUS

Petitioner respectfully prays that a writ of certiorari or a writ of habeas corpus
issue to review the judgment below.

OPINION BELOW

[X]

For case from state courts:
The Opinion of the highest state court to review the merits appears at
Appendix 1 to the petition and is unpublished.

JURISDICTION

[X]

The date on which the highest state court decided my case was August 10.
2020. A copy of that decision appears at Appendix 3.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a)

1

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED

The Fourteenth Amendment to the United State Constitution
Section 1
All persons born or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the law.

2

STATEMENT OF THE CASE
Petitioner was convicted of aggravated assault, criminal mischief, and
possessing an instrument of crime that arose from an alleged road rage, and was
sentenced to 20 years imprisonment by Sandy L.V. Byrd, a judge of the Court of
Common Pleas of Philadelphia County, Pennsylvania. Petitioner was paroled on
12/20/2019. Petitioner will be on parole until 3/7/2028.
Petitioner was prosecuted, convicted, and imprisoned to cover up the crimes
of Jason John Kegel who is a family member, a relative, or a friend of Robert Lynch,
then an assistant district attorney.
Petitioner was prosecuted, convicted, and imprisoned based solely on the
perjured testimony of an individual whose testimony was in direct conflict with
incontrovertible physical, scientific, testimonial, and documentary evidence. His
testimony was also in direct conflict with the physical law of nature and human
experience. He also admitted on the records that he and his foster son had
repeatedly given false statements to the police, detectives; testified falsely at the
preliminary hearing and trial.
Kegel’s attack on Petitioner because Petitioner is an Asian
On 12/7/2006, Jason John Kegel, a white man, attacked Petitioner at the
intersection of Roosevelt Boulevard and Mascher Street in the City of Philadelphia,
Pennsylvania. Kegel attacked Petitioner to avenge the Japanese’s surprise attack
on Pearl Harbor on 12/7/1941.
Kegel struck the back of Petitioner’s car causing damages to the front of his

3

car. He ran out of his car, smashed Petitioner’s driver-side window with his 9-mm
handgun. Petitioner tried to get away from him. Petitioner’s right front bumper
bumped his left rear door. Kegel and his foster son, Cory Anthony Mattes, were not
injured.
Robert Lynch brought criminal charges against Petitioner
Kegel is a family member, a relative, or a friend of Robert Lynch, then an
assistant district attorney. Lynch brought aggravated assault and related charges
against Petitioner to cover up Kegel’s crimes: hate crime, aggravated assault, and
weapon offense.
In December 2006 Kegel was the Dean of Students at Franklin Towne
Charter High School in Philadelphia. At trial in March 2008 Kegel was the Vice
Principal at the school. Had Kegel been prosecuted, he would have been convicted
and would have lost his teaching license and his job.
Lynch and the district attorneys also suborned Kegel and Mattes to fabricate
a story that Petitioner attacked them violently, viciously to prosecute and imprison
Petitioner. Lynch and the district attorneys also suborned Kegel and Mattes to
repeatedly change their stories so that their stories coincided with physical evidence
of the case.
Kegel’s false statements to Detective Miles on 12/11/2006
On 12/11/2006 Kegel gave statements that, for no reason, Petitioner followed
his car with high beams on. He changed lanes to avoid Petitioner’s car, but
Petitioner also changed lanes to follow his car. When he stopped his car at a red

4

light at Mascher Street, Petitioner tapped his rear bumper to lure him out of the car
to inspect the damages. Petitioner drove through cars in the left lane to try to mow
him down. He ran towards Petitioner’s car and was struck on the left leg slightly.
Petitioner’s car swung him around, so he was right in front of Petitioner’s driverside window to kick and break the window. Petitioner’s T-boned his car two times
when he and his son were in the car. His car might be totaled, but he and his son
were not injured.
Mattes’ false statements to Detective Morley on 2/11/2007
On 2/11/2007 Mattes gave statements that Petitioner struck the back of their
car to lure Kegel out of the car to inspect the damages. Petitioner struck Kegel at a
high rate of speed; Kegel went over Petitioner’s car; Kegel kicked and broke the
window. Petitioner struck their car four times: one from behind and three on the
side.
Detective Miles’ false statements in his affidavit of probable cause
On 3/2/2007 Detective Miles filed an affidavit of probable cause for an arrest
warrant. Instead of doing an investigation, he copied Kegel’s statements as the
basis of his affidavit. The police officer at the scene noted in the report that Kegel’s
car only had moderate damage to the driver-side door. Detective Miles went to
Petitioner’s home on 12/17/2006 to look at Petitioner’s car. At trial, he testified that
Petitioner’s car only had minor damage at the front bumper area, and he did not see
Kegel’s car in person. He made false statements that Kegel’s car sustained severe
damages in the amount of $10,000; Kegel suffered a broken blood vessel in his right

5

eyeball that required medical attention when Kegel stated that he did not require
any medical attention. He also omitted Kegel’s statement that Kegel had his 9-mm
handgun out at the scene to have an arrest warrant issued.
Robert Lynch was the prosecutor at the preliminary hearing on
5/14/2007
At the first preliminary hearing on 3/12/2007, the district attorney in charge
was an Asian. Kegel and his foster son had inside information, so they did not show
up.
On 5/14/2007 Robert Lynch was the district attorney in charge. Kegel and his
foster son showed up. When Lynch got to the courthouse, he brought Kegel and his
foster son to the bench to introduce them to Judge Robbins that Kegel was the Dean
of Students at Franklin Towne Charter High School; Mattes was attending William
H. Ziegler Middle School. Kegel and Mattes had to take off from work and from
school to attend the hearing. Judge Robbins commented that it was good for Mattes
to learn a civic lesson. Lynch also disclosed Petitioner’s prior conviction to Kegel.
Kegel’s perjured testimony at the preliminary hearing on 8/3/2007
At the preliminary hearing, Kegel testified that Petitioner struck the upper
thigh area of his left leg driving at a very high rate of speed. He fell forwards onto
the hood of Petitioner’s car and rolled off to the side of the car, so he landed directly
facing the driver-side window to kick and break Petitioner’s window.
Kegel also testified that Petitioner struck his car three times, at a very high
rate of speed, direct, perpendicular, T-bone type, very violently. His left front door

6

collapsed, buckled inwards 8 to 12 inches, wedging him in between the door and the
center console. He was restricted in his movement. He and his foster son were in the
car, but they were not injured. Kegel also lied that his car sustained $11,000 in
damages.
On cross-examination, Kegel denied that he testified Petitioner struck the
upper thigh area of his left leg driving at a very high rate of speed.
When questioned, Kegel admitted that the engine of his car was running. He
had 20 seconds to get into his car to drive away, but he decided to go after
Petitioner. Prosecutor Connolly objected. Judge DiBona, Jr., sustained the objection
to protect Kegel from having to incriminate himself.
Motion for Discovery
On 9/20/2017 trial counsel filed a Motion for Discovery in which he
specifically requested any and all photographs of the damages to Kegel’s car as a
result of the incident on 12/7/2006, and any and all information concerning the
gun(s) carried by Kegel during the incident and any permit(s) for the gun(s).
Trial prosecutor Erica C. Wilson hid or destroyed exculpatory
evidence
Wilson hid or destroyed color photos and the itemized repair estimate of
Kegel’s car showing damages to the front of his car because they are evidence that
Kegel was the aggressor. He hit the back of Petitioner’s car causing damages to the
front of his car.
Kegel was living and working in Philadelphia. Kegel lied about his residency

7

in Montgomery County to obtain or to keep his Montgomery County gun permit
because it is easier to get a gun permit in Montgomery County than in Philadelphia.
Prosecutor Wilson hid or destroyed all information concerning the 9-mm handgun
that Kegel used to commit crimes. The make, model, the date Kegel acquired the
gun, and a copy of Kegel’s Montgomery County gun permit were never turned over
to the defense as requested.
Prosecutor Wilson had extra copies of color photos of Kegel’s car. At the
preliminary hearing, Kegel testified that Petitioner struck his left front door. His
left front door collapsed, buckled inwards 8 to 12 inches, when his left front door
was never directly hit. The two windows on the left side of his car were still intact.
On 10/17/2007 Prosecutor Wilson turned over black and white photocopies of the
photos of Kegel’s car to prevent the Defense’s expert from doing his work. Trial
counsel objected. On 10/25/2007 Wilson turned over color inkjet copies of the photos
of Kegel’s car to continue to cover up Kegel’s crimes of perjury.
Commonwealth’s Accident Reconstruct Report
On 2/15/2008, Police Officer Gary Harrison, the Commonwealth’s expert, filed
his Accident Reconstruction Report in which he stated that there was no physical
evidence that Kegel’s car was struck from behind. Mascher Street which Kegel
testified that Petitioner had turned his car onto numerous times chasing him is a
one-way street with traffic running in the opposite direction. Kegel testified that
Petitioner struck his left leg at a high rate of speed, but the strike was not high­
speed because of the lack of an injury to Kegel’s leg. The contact to Kegel’s car was

8

consistent with a single impact and it was not a high-speed contact. The direction of
force causing the damages appeared to have come from the rear towards the front
because it was consistent with the damage to Petitioner’s car. The area of direct
damage to Kegel’s car was his left rear door; his left front door was not directly hit
and was only scraped and dented. Petitioner’s car only had minor damage at the
right side front. There were no tire marks, grass marks on the roadway.
Robert Lynch suborned Kegel and his son to change their testimony
Since Kegel’s testimony at the preliminary hearing was in direct conflict with
statements made by the Commonwealth’s expert in his report, Lynch gave Kegel a
copy of the report to suborn Kegel and his son to change their testimony at trial so
that their testimony coincided with the content of the report.
Kegel testified that he did not talk to the Commonwealth’s expert, but at trial
Kegel and his son changed their testimony from three hits on their car to two hits
because the report stated that the contact to Kegel’s car was consistent with a
single impact. Kegel also changed the direction of the alleged hits from the three
hits were all perpendicular, T-bone type, to two hits, one at a right angle and one at
a slight angle because the report stated that the direction of the contact was from
the rear toward the front. Kegel also changed his testimony from his left front door
collapsed, buckled inwards 8 to 12 inches, wedging him between the door and the
center console, to his left front door was dented in, pushed in so much he could not
get out of his car because the report stated that Kegel’s left front door was not
directly hit, and was only scraped and dented.

9

Prosecutor Wilson lied to have a jury-waiver trial
Prosecutor Wilson knew that Petitioner had a prior conviction. At trial,
Wilson intentionally left Question 39 (concerning mandatory minimum sentences)
on the Jury-Waiver Trial Colloquy blank because she did not want to send the
colloquy out to another judge. She wanted to get the colloquy done in Judge Byrd’s
courtroom. Wilson also stated on record twice that there were no mandatory
minimum sentences in the case to have a jury-waivered trial.
Testimony of Detective Miles
At trial, Detective Miles testified that Petitioner’s car only had minor damage
at the front bumper, numerous scratches, and it was a little bit off frame, kind of
hanging down a little bit. The driver-side window was broken out of it. It was still
shards of glass on the floor. Detective Miles also testified that he did not see Kegel’s
car in person.
Testimony of Robert Lynch, ADA
Robert Lynch testified that he was the assistant district attorney conducting
the preliminary hearing on 5/14/2007. He brought Petitioner’s file home the night
before (5/13/2007). He spoke with Kegel over the phone. He learned Petitioner’s
description from Kegel, so he recognized Petitioner as soon as he stepped into the
courtroom. Lynch gave Petitioner’s case to Charles Akiba Ehrlich, his immediate
supervisor to prosecute Petitioner.
Trial prosecutor knowingly presented perjured testimony
Prosecutor Wilson knowingly presented Kegel’s perjured testimony that he

10

was driving home from Norristown with his then 13-years old foster son. When he
was coming off the expressway (1-76) entering the Roosevelt Boulevard north, for no
reason, Petitioner followed his car closely with high beams on. He continued to drive
north, made a couple of lane adjustments.
He stopped his car at the intersection at Nineth Street, got out of his car,
yelled “Stop riding my ass,” got back in his car, and continued driving north. He
changed lanes three times, but Petitioner also changed lanes to follow him.
He stopped his car at a red light at the intersection of Mascher Street. There
was one car in front of his car. His car was second from the light. Petitioner’s car
was right behind his car in the center lane. There were other people, other cars in
the right, left lane. There were other cars behind Petitioner’s car.
When he came to a complete stop, Petitioner struck the back of his car. Kegel
got out of his car and started walking toward Petitioner’s car. Petitioner turned his
wheel to make an adjustment to drive towards him and sped directly towards him.
He dove out of the way to his right or right onto Petitioner’s alleged path to escape.
Petitioner went by him, got to the intersection at Mascher, stopped, made a
left turn, drove up the grass median, and continued to come around towards him (1st
left turn). He actually ran towards Petitioner’s car. Petitioner circled the grass
median two times chasing him. Petitioner returned to the roadway, drove in the left
lane, got to Mascher Street, jumped over the median’s cement curb onto the grassy
median (2nd left turn). He pulled out a cell phone, tried to make a 9-1-1 call.
Petitioner circled the median the third time and struck his left leg. He went over

11

the hood of Petitioner’s car. When Petitioner’s car stopped, he was right next to
Petitioner’s passenger side window, but he kicked and broke Petitioner’s driver-side
window.
Petitioner drove through cars in the left lane a third time. He thought
Petitioner got stuck on the curb or on the grass. He ran back to his car. Petitioner
came, struck his car at the driver-side door at a high rate of speed when he and his
son were both in the car. His car moved to the right. The driver-side door was
dented in so much he could not get out of his car. Petitioner backed his car toward
the median. He yelled for his son to get out of the car. When he was climbing over
the center console, Petitioner came towards his car and struck his car again at a
very high rate of speed. He fell to the side, the passenger side door was still open, so
he fell half in and half out of the car. He got out of the car and stood on the cement
median to the right of his car with his son. Petitioner simply drove away.
Prosecutor Wilson suborned Kegel to offer perjured testimony
In response to her subornation, Kegel changed his testimony to make the two
alleged hits on his car more violent, more vicious. He testified that when Petitioner
first struck his car, he was in the center lane. Petitioner’s opportunity to gain speed
was from the grass median, off the median, across the left-hand lane to strike his
car in the center lane. The first time Petitioner struck his car, it moved his car to
the far right lane. So, the second time Petitioner’s opportunity to gain speed was
driving forward on Router 1 [Roosevelt Boulevard], make a left-hand turn (4th left

12

turn), going up the median, off the median across two lanes to strike his car that
was in the far right lane.
Prosecutor Wilson suborned Kegel to offer perjured testimony a
second time
After Kegel had perjured himself on the witness’ stand, Prosecutor Wilson
suborned him to offer perjured testimony again by illustrating his lies at the
whiteboard.
Kegel drew three inner lanes (express lanes) of the Roosevelt Boulevard at
the intersection of Mascher Street. He drew a car in front of his car. His car was
second. Petitioner’s car was right behind his car in the center lane. He drew cars in
the right, left lanes. He also drew cars behind Petitioner’s car.
Kegel then testified that Petitioner drove through cars in the left lane to try
to mow him down. Petitioner made four left turns onto Mascher Street to chase him.
Kegel did not testify that Petitioner circled the grassy median three times
chasing him as he did when he was on the witness’ stand. He was distracted
because he was trying to make a 9-1-1 call. Petitioner struck his left leg with the
left front, the driver-side front, of Petitioner’s car. He went over the hood of
Petitioner’s car, but landed a foot away from Petitioner’s driver-side window to kick
and break Petitioner’s window.
Kegel testified that he ran back to his car to try to escape. Petitioner drove
from the median, made a direct line, came, and struck his car, pushing his car over
to the right lane. Petitioner backed up all the way to the median and then drove

13

again, and smashed into the driver-side of his car, pushing his car all the way to the
far right lane of a three-lane highway. The second time Petitioner struck his car, he
was half in, half out of the car on the passenger side. His body was pushed against
the median.
He got out of his car. He and his foster son walked up to the cement median
on the right of his car. Petitioner just simply drove away. He ran behind the back of
Petitioner’s car to get the license plate number. He also testified that there were
tire tracks coming right in the direction of his car.
His car sustained severe structural and internal damages in the amount of
$11,000. The steering column was broken. The car would not steer. However, he had
testified earlier that when the firemen came, they helped him pushed his car across
the outer three lanes (local lanes) of the Roosevelt Boulevard. The firemen stopped
traffic and pushed his car into a parking lot.
Kegel and his son were not injured. His leg which was allegedly struck by
Petitioner’s car driving at a very high rate of speed was not injured. He never
testified that Petitioner struck his eyeball, but he had a broken blood vessel in his
right eyeball.
Prosecutor Wilson suborned Kegel to offer perjured testimony
concerning his gun
Prosecutor Wilson suborned Kegel to offer perjured testimony that after
Petitioner had struck his car twice, he was outside of his car; he went to his car,
reached into the glove box and pulled his 9-mm handgun out, and he did tell the

14

police that he had his gun out at the scene.
Kegel’s admission of perjury on cross-examination
On cross-examination Kegel admitted that he hid the gun when the police
arrived and did not tell the police that he had his gun out at the scene.
He admitted that at the scene he did not tell the police officer that his car
was tapped in the back. He admitted that he ran towards Petitioner’s car. His car
was running. He had 20 seconds to get into his car to drive away, but he decided to
run towards Petitioner’s car to keep danger away from his foster son who was
sitting in his car.
Kegel testified that he waited 1 hour 45 minutes, 2 hours for the police to
arrive. When questioned about Mascher Street, a one-way street with traffic
running opposite to the direction that he testified Petitioner had turned his car onto
numerous times chasing him, he answered he did not know that Mascher Street is a
one-way street.
Kegel denied that he had testified that Petitioner struck his left leg driving at
a very high rate of speed at the preliminary hearing. When confronted, he answered
that he did not know what a high rate of speed was.
Kegel denied that he told the police officer at the scene that Petitioner’s car
contacted his car one time on the driver-side door. He testified that Petitioner
struck his car twice at a very high rate of speed.
Kegel then admitted that he had lied about the number of hits, the speed of
the hits. He did not know how fast Petitioner was going and how many times

15

Petitioner’s car struck his car.
Kegel admitted that he had lied at the preliminary hearing that the three
hits on his car were all perpendicular hits, very violent hits.
Kegel also admitted that he had told Detective Miles that he had witnesses
when he did not have any witnesses.
Kegel admitted that he was a violent person. He did not back down to fights.
He had a fight in a Gothic Club where he was stabbed. He denied that he was a
Goth (a Gothic person). He denied that he followed the Gothic code. He also
admitted that he was an ex-heroin addict.
Prosecutor Wilson and Judge Byrd prevented trial counsel from
questioning Kegel concerning his prior hate crimes
Through investigation, Petitioner found that Kegel had robbed homosexual
males. When questioned about his prior hate crimes that he admitted committing,
Prosecutor Wilson objected. Judge Byrd sustained the objection to protect Kegel
from having to incriminate himself.
Prosecutor Wilson suborned Mattes to offer perjured testimony to
match his father’s perjured testimony
Wilson knew the allegation that Petitioner struck the back of Kegel’s car was
a recent fabrication, she suborned Mattes to offer perjured testimony that Petitioner
struck the back of their car to match his father’s perjured testimony.
Wilson knew Kegel admitted that he did not know what a high speed was
when he testified that Petitioner’s car struck his left leg, she suborned Mattes to

16

offer perjured testimony that Petitioner struck Kegel’s leg; Kegel went over
Petitioner’s car; Kegel kicked and broke Petitioner’s window to match his father’s
perjured testimony.
Wilson knew that Kegel admitted that he did not know how fast Petitioner’s
car was going and how many times Petitioner’s car struck his car, she suborned
Mattes to change his testimony that Petitioner struck their car from three times to
two times and their car moved from the middle lane to the far right lane to match
his father’s perjured testimony.
Mattes revealed that Robert Lynch came to court to coach him and Kegel to
offer perjured testimony against Petitioner.
Mattes’ admission of false statements on cross-examination
On cross-examination, Mattes testified that he was sitting in the front
passenger seat. It was cold that night. The windows were up. He did not see Kegel
went to the glove compartment to get the gun out. However, Mattes testified that
Kegel did have something in his hand when he was on the median.
Mattes testified that he had his iPod on most of the time, but he knew Kegel
got out of the car and said to Petitioner to turn the high beams off and everything.
Mattes testified that he did talk to Kegel about what happened after the
incident. Mattes lied that he was just saying everything that he knew.
On 2/11/2007 Mattes gave statements that Petitioner struck their car four
times: one from behind and three on the side. When asked, Mattes answered that he
probably thought it was three at that time. He thought it was two at trial.

17

Mattes testified that the two hits were slams. They were pretty hard.
Petitioner backed his car up. Their car moved all the way to the right lane.
Testimony of Police Office Tokley
Officer Tokley, the police officer at the scene, testified that he got the call at
about 9:30 pm. He arrived at the scene at about 10:00 pm or about 30 minutes later.
When he arrived, he observed Kegel’s car had moderate damage to the side of
the car. Kegel did not tell him that Petitioner struck his car more than once. Kegel
just stated that Petitioner’s car struck his car. Kegel did not tell him that Kegel had
his gun out at the scene. Kegel did not tell him that Petitioner hit the back of his
car.
The tire marks on the side of the road did not appear in Officer Tokley’s
report. He was called by the A.I.D. Officer Gary Harrison, the Commonwealth’s
expert, and asked about tire marks about a year later. He testified that there were
no tire marks, grass marks on the street. He was not a car expert. He could not tell
what kind of car the tire marks on the grassy median belonged to.
Testimony of the Defense’s expert
The Defense’s expert testified that Kegel had lied when he testified that
Petitioner struck his car multiple times, at a very high rate of speed, because in a
frontal impact, if the impact was more than 15 miles an hour, the airbag would
have deployed. Once the airbag was deployed, it would freeze the front axle,
immobilizing the car. It was designed to prevent people from driving after airbag
deployment.

18

He testified that the impact associated with Petitioner’s car had to be
between five and ten miles per hour because Petitioner’s car only had some damage
on the Endura cover, the heavy plastic covering that covers the front bumper. There
were no other damages beyond the Endura cover, no scraps into the front grill or
the headlights. Kegel testified that Petitioner struck his car multiple times at a
very high rate of speed, but Petitioner’s car did not show the damages.
The Defense’s expert also testified that Kegel testified that Petitioner struck
his left leg driving at a very high rate of speed. Kegel actually volted [sic] over the
front hood to the other side of the car. If Kegel’s testimony were truthful, Kegel
would not have been able to walk away without injuries.
False testimony of the Commonwealth’s expert
The Commonwealth’s expert was sitting in the courtroom listening to Kegel’s
and his son’s testimony. He knew that Kegel and his son committed peq'ury when
they testified that Petitioner struck their car at a very high rate of speed, pushing
their car from the center lane to the far right lane of a three-lane highway. He
stated in his report that the contact to Kegel’s car was consistent with a single
contact. When questioned, he lied that he could not tell whether it was one hit.
He testified that the contact to Kegel’s was not a high-speed contact. The hit
on Kegel’s car was an angle hit and not a head-on hit because the damage to Kegel’s
left rear door was more compacted.
He stated in his report that Petitioner’s car only had minor damages at the
right side front, citing page 2 of the Itemized Repair Estimate of Petitioner’s car.

19

When questioned, he lied that he could not say the damage to Petitioner’s is a
minimum type of damage because he only saw the front end of Petitioner’s car.
Prosecutor Wilson lied in her closing argument and at sentencing
After the Defense’s and Commonwealth’s experts contradicted Kegel’s and his
son’s testimony, Prosecutor Wilson stated in her closing argument that Kegel was
truthful; Mattes testified and corroborated almost exactly everything that Kegel
said; and the experts agreed with Kegel’s testimony. Kegel did not lie when he
testified that Petitioner struck his car at a very high rate of speed; he only perceived
that the hit was a high speed hit. She also stated at sentencing that the testimony
of Kegel and his son was consistent, and the experts’ testimony, at best, was
inconclusive.
Prosecutor Wilson told Judge Byrd to hide or destroy all trial
exhibits
At the end of the trial on 3/6/2008, Wilson told Judge Byrd to take all trial
exhibits out of the courthouse. Byrd took all trial exhibits including the report of the
police officer at the scene (75-48), reports of the Defense’s and Commonwealth’s
experts, five (5) color photos of Kegel’s car, nine (9) color photos of Petitioner’s car
home with him purportedly to read overnight. Byrd hid or destroyed all trial
exhibits because they are exculpatory to Petitioner and damaging to the district
attorneys and their family. None of the trial exhibits were presented to the Superior
Court when Petitioner was on appeal as required by law. (Pa. R.A.P. 1921).
Judge Byrd attained a false verdict

20

Judge Byrd knew that Kegel’s and his son’s testimony was false because their
testimony was in direct conflict with incontrovertible physical, scientific,
testimonial, and documentary evidence. Their testimony was also against the
physical law of nature and human experience. Kegel admitted that he and his son
had repeatedly given false statements to the police, detectives; testified falsely at
the preliminary hearing and trial. On 3/7/2008 Judge Byrd found Petitioner guilty
of all charges. On 4/24/2008 he sentenced Petitioner to 20 years imprisonment to
cover up crimes of the family of Robert Lynch, an assistant district attorney.
Judge Byrd made false statements at sentencing and in his Opinion
At sentencing on 4/24/2008, Judge Byrd made statements that somehow
Petitioner managed to get off the highway, positioned Petitioner’s car so that
Petitioner could ram headfirst onto Kegel’s car when he was sitting at the light
facing straight ahead, which was confirmed by the damage to Petitioner’s car, and
that perjury did not matter.
Judge Byrd also made a false statement on page 2 of his Opinion filed on
3/6/2009 that Petitioner struck Kegel’s left leg; Petitioner broad-sided Kegel’s car
jamming the driver-side front door.
Judge Byrd omitted evidence that Prosecutor Wilson suborned Kegel to offer
perjured testimony that he did tell the police officer that he had his gun out at the
scene. Judge Byrd also omitted Kegel’s admission that he and his foster son had
repeatedly given false statements to the police, detectives; testified falsely at the
preliminary hearing and trial.

21

Prosecutors’ misconduct on direct appeal
On direct appeal (2307 EDA 2009, 988 A.2d 732), Hugh J. Burns, Jr., and
Joan Weiner continued to hide exculpatory evidence and lied in their brief filed on
8/21/2009 that the incident was a classic road rage. Petitioner used his car to run
down Kegel and ram his car. Petitioner struck the back of Kegel’s car to lure him
out of the car to inspect the damages. Petitioner drove through cars in the left lane
to try to “mow” Kegel down. Petitioner drove through cars in the left lane three
times, made three left turns onto Mascher Street, a one-way street with traffic
running in the opposite direction, to chase Kegel. Petitioner struck Kegel in the left
leg. The impact forced the victim’s body over the front end of Petitioner’s car, but
“miraculously” Kegel landed on both feet directly next to Petitioner’s driver-side
window to kick and break the window. Petitioner rammed Kegel’s car at a high rate
of speed, crushing the driver-side front door. Kegel could not get out of his car.
When Kegel was trying to climb over the center console to get out the passenger
door, Petitioner rammed his car again causing Kegel to tumble to the ground.
The two prosecutors lied that the Defense’s expert was lying that having
viewed the photographs of Kegel’s damaged Corolla, it was his opinion that the
Corolla had been struck only one time (citing page 183 of the Notes of Testimony).
On page 183 the Defense’s expert was looking at nine (9) color photos of Petitioner’s
car, not photos of Kegel’s car. He testified that Kegel testified that Petitioner struck
his car multiple times at a very high rate of speed, but Petitioner’s car did not show

22

the damages. Petitioner’s car only showed an impact between five and ten miles an
hour.
The two prosecutors lied that the police officer at the scene noted the tire
marks that Petitioner’s car had made on the grassy median strip when he testified
that he did not know which car the tire marks belonged to. They lied that Kegel’s
car sustained $11,000 in damages. They lied that it was a “miracle” that Kegel and
his son were not seriously injured.
The two prosecutors lied that at trial on 3/6/2008 Prosecutor Wilson did not
know that Petitioner had a prior conviction when she advised the court that there
were no mandatory minimum sentences in the case. The next day, 3/7/2008
Prosecutor Christine M. Wechsler discovered Petitioner’s prior conviction.
The two prosecutors also lied that Petitioner did not present a scintilla of
evidence to support Kegel’s prior-robbery-of-homosexual allegation.
No intent to cause serious bodily injuries to Kegel and his son
Aggravated assault is an intentional crime. Kegel and his son testified that
after Petitioner had struck their car two, three, four times, Petitioner just simply
drove away.
In their brief, Burns, Jr., and Weiner stated that Petitioner’s intent was to
ram Kegel’s car twice and seeing Kegel on the ground.
“Content at having rammed the Corolla twice and seeing Mr. Kegel on
the ground, defendant backed up his Lexus, returned to the roadway,
and finally drove away.”

23

Petitioner was convicted on actual theory; the PA Superior Court
affirmed Petitioner’s conviction and sentence based on attempt theory
Petitioner was convicted of aggravated assault, criminal mischief, and
possessing an instrument of crime.
“A person is guilty of aggravated assault if he attempts to cause
serious bodily injury to another, or causes such injury intentionally,
knowingly, or recklessly under circumstances manifesting extreme
indifference to the value of human life. (18 Pa. C.S. § 2702(a)(1)).”
At trial, Prosecutor Wilson urged the trial court to find Petitioner guilty of
aggravated assault because Petitioner actually struck Kegel’s leg causing him to
have to end up on the other side of Petitioner’s car.
Judge Byrd found Petitioner’s guilty of all charges because Petitioner struck
Kegel’s leg; Petitioner broad-sided Kegel’s car jamming the driver-side front door.
On direct appeal, Burns, Jr., and Weiner urged the Superior Court to affirm
Petitioner’s conviction and sentence because Petitioner struck Kegel’s left leg
driving at a very high rate of speed. The impact forced Kegel’s body over the front
end of Petitioner’s car. Petitioner rammed Kegel’s car twice at a high rate of speed,
crushing the left front door, causing Kegel to tumble to the ground.
The Superior Court affirmed Petitioner’s conviction based on the theory that
Petitioner attempted to cause serious bodily injury to Kegel which was never
presented at trial.
The Superior Court panel invented excuses to cover up Kegel’s and
his son’s crimes of perjury

24

Kegel admitted that he and his foster son had repeatedly given false
statements to the police, detectives; testified falsely at the preliminary hearing and
trial. The panel stated their statements, testimony were “inconsistent” because “The
witnesses were interviewed on several occasions and testified at several hearings
concerning a high-stress road rage incident with an unknown attacker in the dark
night in the middle of the winter.”
The panel also made three false statements in its Memorandum: (1)
“Specifically, in the report prepared by the investigating officer, there was no
indication that Appellant’s vehicle hit the complainant’s vehicle more than once or
that Appellant retrieved a firearm during the encounter, [sic]” The records .
indicated that it did not have anything to do with Petitioner retrieving a firearm
during the encounter. Kegel testified that after Petitioner had struck his car twice,
he got his gun out of the glove box and he did tell the police officer that he had his
gun out. Officer Tokley testified that Kegel did not tell him Kegel had his gun out at
the scene. (2) “Furthermore, their stories are corroborated by testimony from the
investigating officers [sic] that Appellant’s vehicle had significant damage when
they observed it several days after the night of the incident.” Detective Miles testified that Petitioner’s car only had minor damage at the front bumper area. (3)
“... and that there were tire marks in the grass median where appellant was
chasing the complainant.” Officer Tokley testified that he was not a car expert. He
did not know which car the tire marks on the grassy median belonged to.

25

Prosecutor’s misconduct on the Post-Conviction Relief Act (PCRA)

proceeding
Samuel Harold Ritterman continued to hide exculpatory evidence and
continued to use the same lies that Burns, Jr., and Weiner used on direct appeal in
his motions to dismiss filed on 6/8/2011 and 1/10/2012. Ritterman also lied in his
Response to Petitioner’s Motion for Recusal that the allegations against Judge Byrd
were unsupported and specious.
Motion for Recusal on PCRA proceeding
On 4/27/2012 counsel filed a Motion for Recusal because Judge Byrd is not an
impartial judge. Judge Byrd knew that Kegel’s and Mattes’ testimony was false
because their testimony was in direct conflict with incontrovertible physical,
testimonial, and documentary evidence; Judge Byrd either hid or destroyed all trial
exhibits because they were damaging to the complainants; Judge Byrd made a false
statement on page 2 of his Opinion filed on 3/6/2009; Judge Byrd was in collusion
with the district attorneys and the Superior Court panel to keep their family and
friends from being prosecuted for their crimes of perjury.
Judge Byrd did not refer the motion to another judge for a hearing as
required by law. He refused to recuse. On the same day, he issued a Rule 907
Notice (Pa. R.C.P. Rule 907) dismissing the petition without an evidentiary hearing
to prevent Petitioner from putting on records evidence of his crimes, evidence of the
crimes of the district attorneys and their family.

26

Judge Byrd appointed a law clerk without malpractice insurance to
represent Petitioner on PCRA appeal
On 10/16/2012, Judge Byrd appointed John Martin Belli, a law clerk of the
Court of Common Pleas, without malpractice insurance, to represent Petitioner on
appeal to the Superior Court.
Judge Byrd refused to produce five (5) color photos of Kegel’s car
On 2/5/2013 the Superior Court issued an order directing Judge Byrd to
produce five (5) color photos of Kegel’s car marked as Commonwealth trial exhibits
C-2 through C-6 that he had taken out of the courthouse at the end of the trial on
3/6/2008. On 3/4/2013 Judge Byrd wrote the Superior Court a letter refusing to
produce the photos of Kegel’s car to continue covering up Kegel’s and his son’s
crimes of perjury.
Misconduct of prosecutors on PCRA appeal
On appeal (2091 EDA 2012, 87 A.3d 896), after their lies had been exposed
Hugh J. Burns, Jr., and Joan Weiner had the audacity to continue hiding
exculpatory evidence and continued lying in their brief filed on 9/3/2013 that the
incident was a classic case of road rage and that Petitioner used his car to run down
a motorist and ram his car.
On direct appeal they lied that Petitioner purposely drove his car into the
back of Kegel’s car. They continued to lie that when Kegel stopped his car at a light,
Petitioner “touched” Kegel’s car with the front of his car. Petitioner drove through
cars in the left lane to try to “mow” Kegel down.

27

On direct appeal, they lied that Petitioner drove through cars in the left lane
three times, made three left turns onto Mascher Street, a one-way street with traffic
running in the opposite direction, to chase Kegel. After their lies had been exposed,
the three alleged left turns disappeared in their brief.
On direct appeal, they lied that Petitioner struck Kegel’s left leg. The impact
forced the victim’s body over the front end of Petitioner’s car. “Miraculously,” Kegel
landed on both feet directly next to Petitioner’s driver-side window to kick and
break Petitioner’s window.
On PCRA appeal they still had the audacity to continue to lie that
Petitioner’s struck Kegel’s leg. “Mr. Kegel flew over defendant’s hood and landed
(luckily on both feet) next to defendant’s driver-side window” to kick and break
the window.
On direct appeal, they lied that Petitioner rammed Kegel’s car twice at a high
rate of speed. On PCRA appeal they changed their statement from “at a high rate of
speed” to “When Mr. Kegel looked up, he saw defendant coming on quickly and
ram into the Corolla’s side...”
They still lied that Kegel’s car sustained $11,000 in damages even though
there was not a shred of evidence on the records that Kegel’s car sustained $11,000
in damages.
Prosecutor Wilson admitted that she knew of Petitioner’s prior conviction
before trial. They continued to lie that initially Prosecutor Wilson did not know that
Petitioner had a prior conviction when she advised the court that there were no

28

mandatory minimum sentences in the case. Prosecutor Wechsler later learned that
Petitioner had a prior conviction that subjected Petitioner to the mandatory “second
strike” provision of 42 Pa. C.S. § 9714.
Misconduct of prosecutors on Habeas Corpus proceeding
On 10/6/2014 Petitioner filed a Habeas Corpus petition with the District
Court for the Eastern District of Pennsylvania (2:14-cv-05691-WD).
Thomas W. Dolegnos and Ryan James Dunlavey continued to hide
exculpatory evidence and continued to lie in their Response filed on 2/3/2015 that
the incident was a classic road rage. Petitioner used his car to try to run a man over
on a busy highway in Philadelphia in 2006.
Kegel’s attack on Petitioner was not racially-motivated. There was no
evidence that Kegel and Mattes were in fact related to Robert Lynch. Lynch was not
involved and had nothing to do with Petitioner’s prosecution.
They did not hide any exculpatory evidence. There is no evidence that the
prosecutors “hid or destroyed” anything, much less evidence that shows Kegel’s
version of the incident was false.
They lied that Prosecutor Wilson was “apparently unaware” that Petitioner
had a prior conviction when she responded to Judge Byrd’s question in the negative,
and that the prosecutor made “misstatements” when she told the trial court that
there were no mandatory minimum sentences in the case.
They lied that there was no evidence of perjury. There was no evidence that
the prosecutor “encouraged” [Petitioner’s] victims to lie. There is no credible factual

29

foundation for Petitioner’s prosecutorial misconduct claim.
They lied that Kegel’s alleged involvement in robbing homosexual men
outside bars bears no relevance to Petitioner’s theory. There was no credible
evidence Kegel had robbed anyone or that Kegel held any animus towards Asians.
They lied that Petitioner’s allegation against Judge Byrd lacks any credible
factual foundation.
They lied that Hugh J. Burns, Jr., Joan Weiner, and Samuel Harold
Ritterman did not lie in their briefs, motions to dismiss. Petitioner’s allegations
were based purely on disagreement with prosecutors’ interpretation of the evidence.
They lied that Petitioner’s attack on trial counsel’s performance appears to be
based on nothing more than fantasy.
They lied that PCRA counsel was effective when she refused to raise
important issues and chose to raise only one frivolous issue under state law to cause
procedural default.
They also lied that Petitioner did not offer any evidence to back up his
outlandish, rambling allegations.
Misconduct of the magistrate judge on Habeas Corpus proceeding
Petitioner’s case was assigned to Carol Sandra Moore Wells, then Chief
Magistrate Judge.
Judge Wells knew Kegel admitted that he did not know what a high speed
was when Petitioner’s car allegedly struck his left leg. If this testimony is truthful
then Kegel’s and his son’s statements, testimony that Petitioner’s struck his left leg

30

driving at a very high rate of speed, his body flew over the hood of Petitioner’s car
and ended up on the other side of Petitioner’s car and “miraculously” he landed on
both feet directly next to Petitioner’s driver-side window to kick and break the
window was fabricated to cover up his crimes that he had smashed Petitioner’s
driver-side window with his 9-mm handgun.
Judge Wells also knew Kegel admitted that he did not know how fast
Petitioner’s car was going and how many times Petitioner’s car struck his car. Kegel
also admitted that he had lied at the preliminary hearing that the three hits on his
car were all perpendicular, T-bone type, violent hits. If this testimony is truthful,
then Kegel’s and his son’s statements, testimony that Petitioner struck their car
multiple times, at a very high rate of speed, direct, perpendicular, T-bone type, very
violently are false statements, perjured testimony.
Judge Wells did not seem to understand that a conviction obtained by the use
of perjured testimony is a violation of due process. Mooney v. Holohan, 294 U.S. 103
(1935). She also did not seem to understand that the due process sufficiency
standard in Jackson v. Virginia, 443 U.S. 307 (1979). Judge Wells made the
following statements:
“Petitioner asserts that Kegel and Mattes lied about the events in
question and that he is innocent because he was the victim of Kegel’s
aggression; he also argues that a great deal of evidence presented at
trial refuted Kegel’s version of the events. However, these assertions
are not a proper basis to challenge the sufficiency of the evidence.
Instead, this court must presume that the fact-finder resolved
evidentiary conflicts about what happened on the night in question in
favor of the prosecution. (Citing Jackson, 443 U.S. at 326)”

31

Judge Wells also knew that the Pennsylvania Superior Court panel’s finding
of facts was not only unreasonable but also in direct conflict with incontrovertible
evidence on the records. Judge Wells stated that,
“The Superior Court determined that, at trial, both Kegel and his son
Mattes testified that Petitioner drove his car at Kegel several times.
This allowed the court as fact-finder to infer that Petitioner intended
to cause serious bodily injury to Kegel, which is required for
aggravated assault.”
Kegel testified that when he stopped his car at the intersection of Mascher
Street, there was one car in front of his car; his car was second from the light;
Petitioner’s car was right behind his car in the center lane; there were other people,
other cars in the right, left lanes; and there were other cars behind Petitioner’s car.
It is physically impossible for Petitioner to drive through cars in the left lane in an
attempt to strike him as he testified.
Judge Wells stated,
“Further, both witnesses testified that Petitioner drove his car onto
Kegel’s car twice. This allowed the fact-finder to infer that Petitioner
endangered the car and its occupants, which is required for criminal
mischief. Furthermore, this evidence established that Petitioner drove
his car with the intent to use it criminally, which allowed the fact­
finder to conclude that Petitioner possessed an instrument of crime.”
Judge Wells knew that these statements are in direct conflict with
incontrovertible evidence on the records because Kegel admitted that he did not
know how fast Petitioner’s car was going and how many times Petitioner’s car
struck his car.
Judge Wells also stated that,
“This court must sustain the Superior Court’s resolution of Petitioner’s
32

evidentiary insufficiency claim. The evidence presented at trial
allowed the fact-finder to conclude that Petitioner had used his car to
try to run down Kegel and had struck Kegel’s car twice. This evidence,
as the Superior Court explained, would allow the fact-finder to
conclude that Petitioner had committed aggravated assault, criminal
mischief and possess an instrument of crime. That is all the due
process sufficiency standard requires to sustain his convictions. (Citing
Jackson, 443 U.S. at 319). (Emphasis in original).”
There is nowhere in Jackson v. Virginia or any case in history that the Court
held perjured testimony, admitted being perjured by the complainant, satisfies the
due process sufficient standard required to sustain one’s conviction.
Judge Wells also knew that the two district attorneys Dolgenos and Dunlavey
committed crimes when they hid exculpatory evidence and lied in their Response
filed in the District Court. On 9/30/2015 Judge Wells filed her Report and
Recommendation urging the District Court to deny Petitioner’s Habeas petition
with prejudice to protect state judges, district attorneys, and their family from
being prosecuted for their crimes.
Subsequent PCRA petition
The Court denied Petitioner’s petition for a rehearing en banc on 12/4/2017,
Case No. 17-5446.
Petitioner filed a subsequent PCRA petition on 1/31/2018 based on after
discovered facts, namely the prosecutors in Habeas Corpus proceeding hid
exculpatory evidence and lied in their Response filed on 2/3/2015 pursuant to 42 Pa.
C.S. § 9545(b)(l)(ii) and (b)(2).
Judge Byrd’s misconduct in the Motion for Recusal En Banc
proceeding
33

On 3/14/2018 Petitioner filed a Motion for Recusal En Banc with the
Honorable Sheila A. Woods-Skipper, President Judge of the Court of Common
Pleas, because Petitioner’s case is about criminal activities of several current and
former assistant district attorneys and current judges of the Court of Common
Pleas.
The Motion raised issues of the criminal conduct of Judge Byrd. On 7/10/2018
Judge Byrd usurped the power of the President Judge, held a hearing in his
courtroom to deny the motion.
At the hearing, Petitioner asked Judge Byrd whether the President Judge
assigned the motion to him. Judge Byrd refused to answer the question.
Petitioner also asked Judge Byrd where the trial exhibits that he took home
at the end of the trial on 3/6/2006 purportedly to read overnight were. Judge Byrd
refused to answer the question.
Judge Byrd made statements that the issues raised in the motion were
baseless and denied Petitioner’s motion to keep Petitioner’s case in his courtroom to
cover up his crimes, and the crimes of the district attorneys and their family.
Prosecutor’s misconduct on PCRA proceeding
Judge Byrd procured Daniel V. Cerone, ADA, to file a brief in response to
Petitioner’s PCRA petition. Cerone continued to hide exculpatory evidence and
continued to lie in his brief that the case was a classic road rage. Petitioner used his
car to run down a motorist and ram his car. Petitioner’s PCRA petition is
“ambiguous,” and that Petitioner made “several baseless assertions throughout the

34

extensive petition.” Cerone also lied that Petitioner’s petition is untimely and
Petitioner did not prove an exception to the time-bar.
Petition for a Writ of Prohibition with the PA Supreme Court
On 8/2/2018 Petitioner filed a petition for a Writ of Prohibition with the
Pennsylvania Supreme Court to remove Judge Byrd from Petitioner’s case or
appoint an out-of-county judge to hear the motion for recusal en banc because
Petitioner did not receive a fair and impartial preliminary hearing, trial, direct
appeal, and the first PCRA petition. Petitioner would not be able to receive a fair
and impartial adjudication of the subsequent PCRA petition in Philadelphia County
due to the corrupt, criminal collusion between the district attorneys and judges in
Philadelphia.
With full knowledge that the petition was pending with the Pennsylvania
Supreme Court, on 9/7/2018, Judge Byrd held another hearing in his courtroom to
dismiss Petitioner’s PCRA petition to prevent evidence of his crimes, evidence of the
crimes of the district attorneys and their family from being exposed.
The Pennsylvania Supreme Court denied Petitioner’s petition for a Writ of
Prohibition on 11/26/2018.
Judge Byrd’s false statements in his Opinion filed on 1/15/2018
In his Opinion in response to Petitioner’s PCRA petition, Sandy Byrd made at
least four (4) false statements on page 3 of his Opinion.
First, he stated that “Petitioner does make a number of claims, without
evidence, asserting that his constitutional rights have been violated and that a vast

35

array of government officials conspiring against him.” (Emphasis added).
Second, he stated that “Specifically, petitioner does appear to attempt to
invoke an after-discovered evidence exception to the time bar.” In Note 1, he stated
that “Petitioner states that there is after-discovered evidence based on the fact that
the district attorneys lied to him during his pending habeas petition. As stated
later, petitioner offers no evidence for this claim and it is untimely regardless.”
(Emphasis added). Petitioner never claimed that the district attorneys lied to him.
Petitioner claimed that Thomas W. Dolgenos and Ryan James Dunlavey hid
exculpatory evidence and lied in their Response filed in the District Court.
Third, he stated that “However, these unsubstantiated claims have no
support in the record, and petitioner does not cite the record or attached documents
to substantiate his claim.” (Emphasis added).
Fourth, he asserted that the Pennsylvania Supreme Court held in
Commonwealth v. Jones, 54 A.3d 14, 18 (Pa. 2012) that a PCRA petition based on
information discovered during habeas proceedings must be filed within 60 days of
receipt of that information. The assertion is false because there is nothing on page
18 or anywhere else in the opinion the Pennsylvania Supreme Court held that a
PCRA petition based on information discovered during habeas proceeding must be
filed within 60 days of receipt of that information. In Petitioner’s case, unlike the
Jones case, the District Court did not grant a stay of the proceeding, filing a PCRA
petition at the state level would ensure that there would be dual litigations at both
the state and federal levels at the same time.

36

Pennsylvania Superior Court is biased
The Superior Court panel knew that Petitioner’s claim is that Dolgenos and
Dunlavey hid exculpatory evidence and lied in their Response filed in the District
Court.
“Appellant avers that ‘in [hjabeas [cjorpus proceeding at the Federal
District Court, [the district attorney’s office] hid exculpatory evidence
to Appellant... and lied in their [Response.’ (Citing Appellant’s Brief,
at 8).”
To cover up the crimes of Dolegnos and Dunlavey, the panel intentionally
misstated Petitioner’s claim that:
“Appellant’s argument is based on alleged inconsistencies in the
version of the facts the complainant told authorities during the initial
investigation, the testimony at the preliminary hearing, and the
testimony at trial. Appellant contends that the district attorney’s office
was in possession of documents that would have shown that the
complainant ‘repeatedly [gave] false statements to the police,
detectives; testified falsely at the preliminary hearing and trial.’ (Id. at
9) ... Appellant posits that the district attorney’s office hid these
exculpatory documents from Appellant.”
Petitioner did not contend or posit that the district attorney’s office was in
possession of documents that “would have shown” that the complainant “repeatedly
[gave] false statements to the police, detectives; testified falsely at the preliminary
hearing and trial.” Kegel admitted himself under oath at trial.
Petitioner never claimed that the newly-discovered facts are the documents
exculpatory to Petitioner as the panel listed on page 6 of its Memorandum. The
newly-discovered fact is the criminal activities of Dolgenos and Dunlavey who
interfered with Petitioner’s ability to raise his claims in Habeas Corpus proceeding.
The Superior Court panel concluded that Petitioner was not acting with due
37

diligence because:
First, the panel stated that Petitioner raises the same claim on direct appeal
challenging the weight of the evidence for his conviction when the two claims are
not the same. In the subsequent PCRA petition, the claim is the criminal activities
of Dolgenos and Dunlavey, not the weight of the evidence.
Second, the panel stated that the evidence Petitioner cited in support of his
claim was available to Petitioner and could have been obtained by due diligence. As
stated above, Petitioner never claimed that the newly-discovered fact is the
exculpatory documents in the records. Petitioner never claims to have an
exceptional ability to see into the future. Therefore, Petitioner could not foresee that
Dolegnos and Dunlavey would commit crimes many years later.
The Superior Court panel also intentionally misstated a controlling or
directly relevant authority. The Superior Court panel quoted Judge Byrd in his
Opinion that in the case of Commonwealth v. Jones, 54 A.3d 14, 18 (Pa. 2012) the
Pennsylvania Supreme Court held that a PCRA petition based on information
discovered during the habeas proceeding must be file within 60 days of receipt of
that information. There is no such holding on page 18 or anywhere else in the
Opinion. The Superior Court panel’s opinion otherwise was, in fact, a new law made
for the occasion. Petitioner has not been able to find any precedent that there
should be dual litigations at both the state and federal levels as the law made up by
the panel.

38

Pennsylvania Supreme Court
On 8/10/2020 the Pennsylvania Supreme Court denied Petitioner’s Petition
for Allowance of Appeal without explanation. (No. 113 EAL 2020)
REASON FOR GRANTING THE PETITION
Section 1 of the Fourteenth Amendment to the United States Constitution
states, in part,
“... nor shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the law.”
Petitioner was prosecuted, convicted, and imprisoned to cover up the crimes
of Jason John Kegel who is a family member, a relative, or a friend of Robert Lynch,
then an assistant district attorney.
Petitioner was prosecuted, convicted, and imprisoned based solely on the
perjured testimony, admitted being perjured, by the complainant himself.
Petitioner’s was deprived of liberty and property without due process of law.
Petitioner was also denied the equal protection of the law. Petitioner’s trial and
conviction lacked fundamental fairness. The Kafkaesque “judicial processes” that
Petition had to go through for over 12 years lacked any judicial character.
Petitioner did not receive a fair and impartial preliminary hearing, trial,
appeal, Post-Conviction proceeding because the collusion between the district
attorneys and state judges.
Petitioner did not receive a fair and impartial adjudication of his Habeas
Corpus petition also because of the collusion between the federal judges, state

39

judges and prosecutors.
Petitioner cannot apply for a Writ of Habeas Corpus in the United States
District Court, Eastern District of Pennsylvania, because judges at the District
Court and judges at the Third Circuit are not impartial judges.
As a reason, Petition has to apply for a Writ of Habeas Corpus with the Court
as the Court of last resort.
CONCLUSION
WHEREFORE, Petitioner respectfully requests that the Court either grant
his Petition for Certiorari or grant his Petition for a Writ of Habeas Corpus.
Respectfully submitted,

S6/
Nguyen Vu, Petitioner
5913 Roosevelt Blvd
Philadelphia PA 19149-3320
(215) 827-7885

40

